Me*--

No. Case:

H-Vot

In the
SUPREME COURT OF THE UNITED STATES
MARILU TOUMA, Petitioner,
vs.
THE GENERAL COUNSEL OF THE REGENT AND
ET AL, Respondents,
On Petition for Certiorari to the United States
Court of Appeals for the Ninth Circuit, San Francisco,
California No. Case: 18-55996
Southern District Court, Santa Ana, California.
No. 8:17-cv-01132-VBF-KS
Central District Court, Los Angeles, California.
No. 8:17-cv-01132-VBF-KS
PETITION FOR A WRIT OF CERTIORARI
MARILU TOUMA
Plaintiff, Appellant and
Petitioner
4439 Murietta Avenue #20
Sherman Oaks, CA 91423
mtoume2017@aol.com
PROPER

i.
QUESTIONS PRESENTED
1. Whether, UCLA Medical Center violated the America with
Disability Act (ADA); Title II of the America with Disability
of 1990 (ADA) and Civil Rights (SAC) when the hospital
and its employees denied medical treatment to a disable
woman; provided her substandard medical services; denied
her stabilization at the Emergency Room (ER); abused her
physically and mentally; accused of a criminal act; among
other horrendous claims with the intention to destroy her
persona and reputation; because she OBJECTED the
abusive behavior and REJECTED inferior medical service?
2. Whether, All decisions made in petitioner’s case at the
Southern District Court and the Central District Court
should be VOID for Lack of Jurisdiction', Abused of Power
and Acted in Bad Faith. And Whether these deceitful
actions constitute a VIOLATION of petitioner’s Due
Process; Deprivation of Civil Rights; Conspiracy to interfere
with Civil Rights; violation under The America

s~

11.

with Disability Act (ADA); Title II of the America with
Disability of 1990 (ADA) and other violations determine by
this court?
3. Whether, The Court of Appeals for the Ninth Circuit Abused
its Power when FAILED to review petitioner’s VIOLATION
of Due Process; Acted in Bad Faith when affirmed the lower
courts’ decisions and concluded petitioner’s case is
Frivolous; when lower courts lack jurisdiction in this case.
And Whether those deceitful actions constitute a
VIOLATION of petitioner’s Due Process; Deprivation of
Civil Rights; Conspiracy to interfere with Civil Rights;
violation under The America with Disability Act (ADA);
Title II of the America with Disability of 1990 (ADA) and
other violations determine by this court?

mjit.

iii.
LIST OF PARTIES INVOLVED
1) MARILU TOUMA. Plaintiff-Petitioner.
2) DEFENDANTS-RESPONDENTS have not appeared
at any stage in this lawsuit.
a. The General Counsel of the Regents a/k/a “The
Regents”. Defendant-Respondent.
b. Veena Ranganath. Defendant-Respondent.
c. Roy Altman. Defendant-Respondent.
d. Melissa Ginsburg. Defendant-Respondent.
e. Mike (Unknown last name). Defendant-Respondent.
f. Nickolas Baca. Defendant-Respondent.
g. Emily Huang. Defendant-Respondent.
h. Michael Weingrow. Defendant-Respondent.
i. Los Angeles City. Defendant-Respondent.
j. Los Angeles County. Defendant-Respondent.
k. Bristol-Myers Squibb (BMS) Defendant-Respondent
and
1. Does 1 through 10, Inclusive. Defendant-Respondent.

IV.

TABLE OF CONTENTS
QUESTIONS PRESENTED ...

1

LIST OF PARTIES

m

TABLE OF CONTENTS

IV

TABLE OF AUTHORITIES

Vll

JURISDICTION

1

CONSTITUTIONAL AND STATUTE AT ISSUE

3

STATEMENT OF THE CASE

5

A. Facts Giving Rise to This Case ... ............... 3,4.5
B. The District Court Proceedings.... 2, 3, 4, 11, 12, 13
C. The Appellate Court Proceedings ........1,2,3, 13, 15
REASONS FOR GRANTING THE PETITION

16

I. REVIEW IS JUSTIFIED BECAUSE COURT
OF APPEALS DID NOT REVIEW VIOLATION
OF DUE PROCESS AND COURT OF APPEALS
LACK JURISDICTION OVER DEFENDANTS
.............................................................1, 2, 3, 4,13, 15,16
II. REVIEW IS JUSTIFIED BECAUSE THE
SOUTHERN DISTRICT COURT AND THE
CENTRAL DISTRICT COURT LACK
JURISDICTION IN THIS CASE... 2, 3,11, 12, 13, 22
III. REVIEW IS JUSTIFIED BECAUSE THE

E—

V.

MAGISTRATE JUDGE (MJ), ABUSED
HER POWER AND ACTED IN BAD FAITH

24

A. MJ OBSTRUCTED DUE PROCESS
2,3,12, 17,18, 20,22,23,24,25
B. MJ SUPPRESSED EVIDENCE

2,3,12,27

C. MJ INVALID REPORT AND
RECOMMENDATION (R&R)

2,312,13,28,29

IV. REVIEW IS JUSTIFIED BECAUSE DISTRICT
JUDGE (DJ) ABUSED HER POWER AND
ACTED IN BAD FAITH.....................................

29

A. DJ RULED IN A CASE; SHE LACKS
JURISDICTION

2,3,11,12,13,22,23,24,29

B. DJ REVOKED PETITIONER’S
PAUPERI STATUS

12,15,16,18,19,20,30,31,32

C. DJ CONCLUDED PETITIONER’S
CASE IS FRIVOLOUS................... 15 ,16,18,29,31,32
1. Theory of Plausibility:...............
•

32

Coherent Legal Theory.......

32

• Truthful Facts......................

32

a. Reasonable inference of
liability................................

33

b. Degree of factual specificity

34

c. Information and belief.

34

5£

VI.

V.

REVIEW IS JUSTIFIED BECAUSE TO
DELIBERATE INFLICT PSYCHOLOGICAL
PAIN TO A DISABLE LITIGANT IS JUST
“INHUMANE”......1,2,3,4,11,12,13,14,15,16,34,35,36

VI.

CONCLUSION

36

APPENDIX TABLE OF CONTENT

37

APPENDIX A (Appeals MANDATE)

.16,38

APPENDIX B (Appeals DISMISSED and
DENIED Motion for Reconsideration to appear
in forma pauperi)

16,21,39

APPENDIX C (Appeals DENIED Request for
Opinion as to why concluded case is frivolous;
DENIED Motion for Reconsideration for Dismissing
case; DENIED Petition for Rehearing en banc;
DENIED Motion to extend time to file Opening Brief;
DENIED Motion to appoint a Pro Bono attorney in
petitioner’s case; DENIED Motion to appear in forma
pauperi; DISMISSED petitioner’s case)

16,41

Vll.

APPENDIX D (Central District, FINAL
JUDGMENT)

13,31,43

APPENDIX E (Central District ORDERS:
OVERRULED Petitioner’s Objections, ADOPTED
Magistrate Judge’s R &R; DISMISSED Second
Amended Complaint. DISMISSED case with
Prejudice; DIRECTED Entry of Final Judgment,
TERMINATED and CLOSED CASE)

13,18,31,44

APPENDIX F (Central District MAGISTRATE
JUDGE’S REPORT AND RECOMMENDATIONS
13,29,47

(R&R)
TABLE OF AUTHORITIES
CASES
Keys v. Humana, Inc.
684 F.3d 605,609 (6th Cir.2012)

11

Freund v. Nycomed Amersham,
347 F.3d 752, 762 (9* Cir. 2003).

13

Harman v. Apfel,
211 F.3dll72, 1174 (9th Cir. 2000)

14

Vlll.

Freeman u. DirecTV, Inc.,
457 F.3d 1001,1004 (9th Cir. 2006)

14

Rand u. Rowland,
154. F.3d.952,957 n4(9th Cir. 1998)

15

Murphy Bros., Inc. v. Michetti Pipe Stringing, Inc.,
526 U.S. 344, 350, 119 S.Ct. 1322, 143
L.Ed.2d 448 (1999)
. 21
Combs v. Nick Garin Trucking,
825 F.2d 437, 442 & n. 42 (D.C.Cir.1987)
(collecting cases); cf.....................................

21

Cambridge Holdings Grp., Inc. v. Federal Ins.
Co., 489 F.3d 1356, 1360 (D.C.Cir.2007) .21,22
Henderson v. U.S.,
517 U.S,654, 672 (1996);

22

Mann v. Castiel,
68lF.3d 368, 372 (D.C. Cir. 2012)

22

Barrett u. City of Allentown,
152 F.R.D. 46,............

22

Lepone-Dempsey,
476 F.3d at 1280-81;

23

Henderson v. U.S.,
517 U.S. 654, 656 (1996).

23

Gorman v. Ameritrade Holding Corp.,
293 F.3d 506, 514 (D.C.Cir.2002);

23

IX.

Omni Capital Int 'l, Ltd. v. Rudolf Wolff & Co.,
Ltd., 484 U.S. 97, 104, 108 S.Ct. 404, 98
L.Ed.2d 415 (1987)...... ......... ..................

23

Melo v. US,
505 F2d 1026

. 24

Broom v. Douglas,
75 Ala 268, 57 So 860
Willie James Glover, Plaintiff-Appellee CrossAppellant, v. Alabama Board of Corrections,
Et Al., Defendants, James Towns, DefendantAppellant Cross-Appellee., 660 F.2d 120
(5th Cir. 1981)..................................................

24

25,26

Latana v. Hopper,
102 F. 2d 188; Chicago v. New York* 37 F
Supp. 150...... .................... .........................

26

Chicago v. New York± 3
7 F Supp. 150....

26

OLD WAYNE MUT. L. ASSOC, v. McDONOUGH,
204 U. S. 8, 27 S. Ct. 236 (1907)................. 27
Rose v. Bartle±
871 F.2d 331, 339 n.3 (3d. Cir. 1989)

28

Summers v. Utah,
927 F.2d 1165, 1167 (10th Cir.1991)

29

McCoy v. Goldston,
652 F.2d 654, 657 (6th Cir, 1982)

30

Iqbal, 556 U.S. at 678-79

33

g~T

X.

Whitney v. Guys, Inc.,
700 F.3d 1118, 1128 (8th Cir.2012)

33

Shepard v. David Evans & Associations.,
694 F.3d 1045, 1050, (9th Cir.2012)

34

Arista Records LLC v. Doe
3, 604 F.3d 110, 120 (2d Cir. 2010)

34

U. S. CONSTITUTION
Article Three. Section 2 (a) Court System.
The Judiciary Branch...............'........... ........ 25, 26,27
CONSTITUTIONAL AMENDMENTS
The Fourteenth Amendment: Due Process Clause.
................................... ..3,12,13,18,20,21,22,23,24,27,28
STATUTES
42 U.S.C.1981 Equal Rights under the Law..3,5,11,17
42 U.S.C.1983 Deprivation of Civil Rights. ..3,5,11,17
42 U.S.C.1985 Conspiracy to interfere with Civil
3,5,11,17
Rights
U. S. ACTS
The American with Disability Act of 1992. (ADA).
................................................................................ 4,5,12,17
Title II of the America with Disability Act (ADA)
of 1990
4,5,12,17

K—

XI.

Section 504 of the Rehabilitation Act of 1973
4,5,12,17
Emergency Medical Treatment & Labor Act
(EMTALA)
4,6,12,17
Title 45 CFR 46 Protection of Human Subjects
4,5,12,17
FEDERAL RULES OF APPELLATE PROCEDURE
FRAP 3. APPEAL AS OF RIGHT-HOW TAKEN
(1) Filing the Notice of Appeal.....................

13

FRAP 10. THE RECORD ON APPEAL

21

FRAP 11. FORWARDING THE RECORD......... 14,21
FRAP 24 PROCEEDING IN FORMA PAUPERIS
(a) Leave to Proceed in Forma Pauperis.
(1) Motion in the District Court.
(2) Action on the Motion.
(3) Prior Approval.
(4) Notice of District’s Denial.
(5) Motion in the Court of Appeals
12.18
FRAP 28. BRIEFS

14,21

FEDERAL RULES OF CIVIL PROCEDURE
FRCP 3 COMMENCING IN ACTION
FRCP 4. SUMMONS. AMENDMENTS
CONTENTS...............................

11
12,17

c—

Xll.

FRCP 4. 1 SERVING OTHER PROCESS

12,17

FRCP 26. DUTY TO DISCLOSE; GENERAL
PROVISIONS GOVERNING
12,17,27
DISCOVERY....................... .
FRCP 34. PRODUCING DOCUMENTS,
ELECTRONICALLY STORED
INFORMATION, DOCUMENTS.. 12,17,28
FRCP 38. TRIAL. RIGHT TO A JURY TRIAL.
DEMAND........................................... .29,30
FRCP 52. FINDING & CONCLUSIONS BY THE
COURT; JUDGMENT OF PARTIAL
FINDINGS.
(a) Findings & Conclusions
14, 19, 29
FRCP 72. MAGISTRATE JUDGES: PRETRIAL
ORDER
(a) Nondispositive Matters
.25,26,27
FRCP 73. MAGISTRATE JUDGES: TRIAL BY
CONSENT; APPEAL.
25,26,27
(a) Trial by Consent

m

1
PETITION FOR WRIT OF CERTIORARI
Marilu Touma respectfully petition for a Writ of Certiorari
to review the orders, affirmation, mandate of the Court of
Appeals for the 9th Circuit, and orders, proceedings and
final judgment of the Central District Court and the
Southern District Court. Review is invoked under 28
U.S.C. § 1254(1).
JURISDICTION
1. Court of Appeals MANDATE entered on May 1
2019. APPENDIX A
2. Court of Appeals DISMISSING the case as frivolous;
DENYING petitioner’ Request for an Opinion as to
WHY appeal is frivolous; DENYING Motion for
Reconsideration for dismissal of the case and
Rehearing en banc; DENYING Motions for leave to
appear in forma pauperi; DENYING Motion to appoint a
pro bono attorney in this case; DENYING Motion for
Reconsideration for denying leave to appear in forma

S-

2
pauperi; DENYING Motion to extend time to file
Opening Brief; Dismissing case; entered on April 23,
2019. APPENDIX. B
3. Court of Appeals FINAL JUDGMENT; DENYING
petitioner’s Motion for Reconsideration to leave to
proceed in forma pauperi entered on January 18,
2019. APPENDIX. C
4. Central District Court FINAL JUDGMENT in FAVOR
of all Defendants; AGAINST Petitioner entered on July
6, 2018. APPENDIX. D
5. Central District Court entered its order OVERRULING
Petitioner’s Objections, ADOPTING Magistrate Judge’s
Report and Recommendation; DISMISSING Second
Amended Complaint. DISMISSING case with Prejudice;
DIRECTING Entry of Final Judgment, TERMINATING
and CLOSING case entered on July 6, 2018.
APPENDIX E
6. Central District Court Magistrate Judge's REPORT

3
AND RECOMMENDATION entered on April 5, 2018.
APPENDIX F
CONSTITUTIONAL AND STATUTE AT ISSUE
THE FOURTEENTH AMENDMENT
“Section. 1. All persons born or naturalized in the
United States and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State... nor shall any State
deprive any person of life, liberty, or property,
without Due process of law,”
42 U.S. Code § 1981. EQUAL RIGHTS
“All persons within the jurisdiction of the United
States shall have the same right in every State
...to make and enforce contracts, to sue...benefit of all
laws and proceedings for the security of persons ...”
42 U.S. Code § 1983. DEPRIVATION OF RIGHTS
“Every person who, under color of any statute,
Of any State ... deprivation of any rights,...shall be
liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress...”
42 U.S. Code § 1985. CONSPIRACY TO INTERFERE
WITH CIVIL RIGHTS.
“If two or more persons in any State ...conspire to
deter, by force, intimidation, or threat,..’. may have
an action for the recovery of damages occasioned by
such injury or deprivation...”

Shr--- •

4
THE AMERICAN WITH DISABILITY ACT 1990 (ADA)
“The ADA is a civil rights law that prohibits
discrimination against individuals with disabilities
in all areas of public life, including all public
(hospitals) ...”
TITLE II OF THE AMERICA WITH DISABILITY ACT
“The Americans with Disabilities Act of 1990 (ADA)
is a federal law that prohibits discrimination against
qualified individuals with disabilities and protects
persons with disabilities from discrimination in
many public places..”
EMERGENCY MEDICAL TREATMENT & LABOR
ACT (EMTALA)
EMTALA Federal labor law requires that if a
patient is determined to have an Emergency Medical
Condition then the Emergency Department Staff
must screen and STABILIZE the patient, if possible,
before asking about insurance.
TITLE 45 CFR 46 PROTECTION OF HUMAN
SUBJECTS
In the United States, the Code of Federal
Regulations Title 45: Public Welfare, part 46
(45 CFR 46) provides protection for human subjects
in research carried out or supported by most federal
departments and agencies.

5
STATEMENT OF THE CASE
A.

Facts Giving Rise to This Case
Petitioner is a disable woman; who wanted to

contract the medical services of a Rheumatologist Arthritis
Specialist at UCLA Medical Center; because she wanted to
become pregnant; those services were denied (42
U.S.C.1981 Equal Rights under the Law). Instead; she
was provided with alternative services. She was sent to a
Research study were she was provided with INFERIOR
services that put her life at risk. The Americans with
Disabilities Act of 1990 (ADA).
Altman and Ranganath did NOT DISCLOSED
information about the study and did NOT INFORMED
Petitioner’s about all her medical conditions; which is a
VIOLATION of Title 45 CFR 46 Protection of Human
Subjects. Petitioner started to experience several SIDE
EFFECTS: losing hair, itching, stomach pain among other
side effects that she communicated to Ranganath.

6
Petitioner was scared when she found out, the medication
ORENCIA she was receiving from the study was EXPIRED
(one year-or older). Ranganath told her everything was
OK; but Ranganath excluded her from a meeting with the
ORENCIA representatives; suddenly her English skills
were in question; but never offered a translator nor offered
information in petitioner’s native language. Ranganath
altered Petitioner’s doses of medications. Petitioner
TRUSTED Ranganath’s medical expertise and continued
taken the medications as prescribed by her.
“On June 23, 2013, around 11:30 p.m. Petitioner
felt severe chest pain, short of breath, dizziness,
fainted at home, Headaches, numbness in the face
and stomached, Chest Pain: Sharp, Acute, Intense
pain in the chest. Shortness of Breath. Numbness of
in the face. Headache: Sharp, Intense and Stomach
Pain. Petitioner was scared for her life. She went to
UCLA Medical Center Emergency Room (ER)
seeking medical help. At UCLA ER petitioner was
single out; mistreated and discriminated. When she
tried to STOP the abuse... She was DENIED
medical TREATMENT and STABILIZATION at the
ER. Violation of Emergency Medical Treatment &
Labor Act (EMTALA)”. She was physical and
mentally abused; was Retaliated; humiliated and
accused of a CRIMINAL ACT among other repulsive

7
unfounded ACCUSATIONS; only with the EVIL
INTENTION to destroy petition’s REPUTATION and
CREDIBILITY’.
When petitioner was release from UCLA ER,
“she had, MORE Chest pain: sharp, acute.
More Shortness of breath. Numbness in the face.
MORE Headache (left side of my head) Sharp,
intense. Stomach pain. (Left side of my stomach)
Mistreated, insulted, humiliated and denied
medical services by UCLA ER Doctors and Staff.
On June 26, 2013 Plaintiff was afraid for her
health; she went to UCLA, Santa Monica; for the
symptoms she went to UCLA ER. After the
incident at the UCLA ER; petitioner told
Ranganath she did not want to continue in her
study”.
Ranganath TOLD petitioner...
• “The mistreatment and discrimination Petitioner
was subjected to at the UCLA ER was
because Petitioner was a COLORED WOMAN.
• Ranganath, described in detail her personal racial
discrimination experience at the UCLA
Gynecology Department.
• Ranganath told Petitioner to go to another
hospital close to petitioner’s home; after
Petitioner told Ranganath; she wanted to see a
regular Rheumatoid Arthritis specialist at UCLA.
• Ranganath told petitioner her Research
assistance was going to mail a copy of petitioner’s
UCLA ER Medical Report before SOMEONE
ALTER/CHANGE her Medical Records at the
UCLA ER”.

8
Ranganath INFLICTED terror, fear on petitioner.
Her DESPICABLE behavior pushed Petitioner to write
many official complaints in a very inflamed tone.
Petitioner tried to make an appointment with a RA
specialist at UCLA hospital; but receptionist would only
give her an appointment with Ranganath. Petitioner did
not feel safe nor trusted Ranganath. Later, Petitioner did
not feel safe at all going to UCLA Medical Center for any
treatment. UCLA Security denied to take petitioner’s
claim.
Petitioner filed several complain at UCLA. Petitioner
stated to receive THREAT MESSAGES in her cell phone:
the message stated: “stop complaint...husband is sick.. I am
in the hospital”. The only Hospital Petitioner was making
a complaint was UCLA Medical Center. Petitioner was
afraid UNAUTHORIZED personnel at UCLA Medical Center
were viewing petitioner's personal and medical information.
Since Petitioner was under the “medical treatment”

9
of Altman and Ranganath; other RA specialists had
diagnosed petitioner with Rheumatoid Arthritis, Lupus
(Borderline) Fibromyalgia, S’Jorgen Syndrome, thyroiditis,
,Chrone Disease, Ulcers, among other diseases,
infections' and conditions. Petitioner was forced to undergo
several medical procedures and take several drug
medications that had negative side effects.
On or about 2015, Petitioner learned for the FIRST
TIME:
•

She has LUPUS (Borderline) since 2012; based on
Altman and Ranganath’s lab exams.

•

Altman and Ranganath DID NOT DISCLOSED vital
medical and non-medical information about the
Study and Petitioner’s medical condition.

•

UCLA ER employees (Defendants) were
SPREADING RUMORS about petitioner’s persona:
she is difficult, does not want to be touch, ASSAULT
(strike) ER employee among other REPULSIVE

10
unfounded RUMORS to destroy petitioner’s persona.
•

Petitioner received a letter from UCLA Medical
Center stating its computers were hacked in 20132014 (est.). Petitioner’s personal information was
compromised.

•

Petitioner’s Mental medical records were obtained
without Petitioner’s authorization.

On or about January 2018, Petitioner learned
•

Pharmaceutical, BRISTOL-MYERS SQUIBB
provided ORENCIA (EXPIRED) to Ranganath for the
study she was conducting at UCLA Medical Center.
For the last five years (est.) Petitioner had made

several claims to the City, County, Federal Agencies:
Department of Health Civil Rights AGAINST UCLA
Medical Center for FAILURE to comply with local, state,
federal laws that prohibit discrimination in public settings
(Hospitals).

11
As a result of that; Petitioner experienced STRONG
retaliation and opposition from the Medical and NonMedical establishments. Petitioner is not receiving medical
services and her Medical condition is deteriorating.
B.

The Southern District and Central District
Court Proceedings
On June 30, 2017, petitioner filed a Civil Right

lawsuit at the Southern District Court against all
respondents seeking compensatory, punitive damages and
for further relief the Court determine necessary and
appropriate in this case. (FRCP 3). Petitioner filed as a pro
se; complaint had some technical errors; but encompassed
all the FACTS she claims in her complaint; “civil rights
allegations...do not have to be pleaded with particularity”
Keys v. Humana, Inc. 684 F.3d 605,609 (6th Cir.2012).
“This Civil Right claim constitutes a
constitutional violations of petitioner’s
Civil Rights under Sections 42 U.S.C.1981;
First Amendment Retaliation under 42 U.S.C.
1983 Conspiracy under 42 U.S.C.1985;

12
Violation of American Disability Act (ADA);
First Amendment Retaliation under ADA;
Conspiracy under ADA; Section 504 of the
Rehabilitation Act of 1973; Title II of the
America with Disability Act (ADA);
violation of Title 45 CFR 46 Protection of
Human Subjects inflicted upon Petitioner by
Respondents: Ronald Reagan UCLA Hospital
aka “The Regents”; Veena Ranganath;
Roy Altman; Daniel Michael Weingrow; Emily
Huang; Melissa Ginsburg; Mike (Unknown last
name); Nick Baca, Los Angeles City; Los Angeles
County; Bristol-Myers Squibb (BMS) and Does 1
through 10, Inclusive”. (SAC)
The Southern District Court did not issue the
Summons (FRCP 4); but rather transferred the case to the
Central District Court. Petitioner case was assigned to a
Magistrate Judge; who granted petitioner pauperi status
(FRAP 24); ordered not to serve any documents to the
defendants (FRCP 4.1) and not to include any exhibits in
her pleadings (FRCP 26, 34). In despite of the several
OBSTACLES Petitioner was facing; she complied with the
court and filed her Second Amendment complaint (SAC).
MJ did not reply on the SAC; but filed her Report and

13
Recommendation (R&R). Petitioner timely filed her
OBJECTIONS (FRCP 72) to Magistrate Judge’s Report &
Recommendation (R&R). (app. F)
District Judge DENIED Motion to extend time to
serve the Summons and the Complaint to the defendants;
OVERRULED Petitioner’s Objections; ADOPTED
Magistrate Judge’s Report and Recommendation;
DISMISSED Second Amended Complaint with Prejudice;
TERMINATED and CLOSE case. (app. D). For the final
judgement; District Judge ruled IN FAVOR of all
defendants and AGAINST Petitioner, (app E). Petitioner
filed a Notice of Appeal. (FRAP 3)
C.

The Appellate Court Proceedings
The Standard of Review in a case is critical to the

outcome of a case. The proper standard of review in a
question of federal procedure is governed, by federal law.
See Freund v. Nycomed Amersham, 347 F.3d 752, 762 (9th
Cir. 2003). Judges made their decisions based on three

14
categories: (1) question of law (reviewable de novo); (2)
question of fact (reviewable for clear error); and (3) matter
of discretion (reviewable for abuse of discretion). See
Harman v. Apfel, 211 F.3dll72, 1174 (9th Cir. 2000).
If the court of appeal decided on petitioner’s case based on
the brief and court records (FRAP 11, 28); case qualify for
review under De Novo; that means court of appeals had to
review the case from the start at the District court (FRAP
11); as if no decision had been rendered. Freeman v.
DirecTV, Inc.,457 F.3d 1001,1004 (9th Cir. 2006).
Review of the District court’s finding of facts are
reviewable under the clearly erroneous standard. District
Judge denied petitioner fact and findings as to why she
concluded petitioner’s case is frivolous and nine
controverted issues about her case (FRCP 52); because she
did not hold an evidentiary hearing; Findings of fact are
made on the basis of evidentiary hearings and usually
involve credibility determination, which explains why they

m

15
are reviewed deferentially under the clearly erroneous
standard: Rand v. Rowland, 154. F.3d.952,957 n4(9th Cir.
1998). Further, standard of review does not apply in
petitioner’s case; because the court of appeals lack
jurisdiction over the defendants; there was NO CASE
(FRCP 4.1).
The Court of Appeals referred petitioner’s case back
to the District Judge to determine whether case was
frivolous and if Petitioner should proceed in forma pauperi.
District Judge DENIED petitioner to proceed in forma
pauperi at the court of appeals and advised petitioner to
applied again to proceed in forma pauperi at the court of
appeals level.
The Court of Appeals ORDERED Petitioner to
DISMISS her appeal or to filed a WRITTEN STATEMENT
stating why her case is NOT FRIVOLOUS along with a
Motion requesting leave to proceed in forma pauperi.
Petitioner COMPLIED with court of appeal orders.

16
On January 18, 2019, Court DISMISSED petitioner’s
appeal as frivolous and DENIED petitioner’s motion to
proceed in forma pauperi. (app. B). On April 23, 2018, the
court of Appeals DENIED all Petitioners’ Motions [31], [32].
[33], [34]. [35] & [36] that were treated as a combined
Motion for Reconsideration; Reconsideration en banc; also,
DENIED request for an Opinion as to why the court
concluded the appeal was frivolous and DENIED
Reconsideration for the denial of pauperi status, (app. C)
On May 1, 2019 court of appeal entered its
MANDATE, (app. A)
REASONS WHY CERTIORARI SHOULD BE
GRANTED
I.

REVIEW IS JUSTIFIED BECAUSE THE
COURT OF APPEALS DID NOT REVIEW
VIOLATION OF DUE PROCESS AND APPEAL
COURT LACKS JURISDICTION OVER
DEFENDANTS.
On June 30, 2017, petitioner filed a Civil Right

.

lawsuit at the SOUTHERN DISTRICT COURT seeking

-- ?r-g--

17
damages and for further relief the Court determine
necessary and appropriate in her case for violations of
petitioner’s Civil Rights under Sections
“42 U.S.C.1981; First Amendment Retaliation
under 42 U.S.C.1983 Conspiracy under 42
U.S.C.1985; Violation of American Disability Act
(ADA); First Amendment Retaliation under ADA;
Conspiracy under ADA; Section 504 of the
Rehabilitation Act of 1973; Title II of the America
with Disability Act (ADA); violation of Title 45 CFR
46 Protection of Human Subjects inflicted upon
Petitioner by Respondents: Ronald Reagan UCLA
Hospital aka “The Regents”; Veena Ranganath; Roy
Altman; Daniel Michael Weingrow; Emily
Huang; Melissa Ginsburg; Mike (Unknown last
name); Nick Baca, Los Angeles City; Los Angeles
County; Bristol-Myers Squibb (BMS) and Does 1
through 10, Inclusive”. (SAC)
The SOUTHERN DISTRICT COURT did not issue
the SUMMONS (FRCP 4); case was transferred to the
CENTRAL DISTRICT COURT; Magistrate Judge ordered
petitioner NOT TO SERVE (FRCP 4.1) any documents to
the defendants and NOT TO INCLUDE evidence in her
pleadings (FRCP 26, 34). Further, the Central District
court FINAL ruling was IN FAVOR of all the defendants

18
(whom did not appear at any stage in this lawsuit) and
AGAINST petitioner, (app. E)
Petitioner escalated her case to the Court of Appeals
for a REVIEW OF VIOLATION OF DUE PROCESS and
Review of the final decision and pre-trial orders. The
“Court of Appeals shall have jurisdiction for all final
decision of the district courts”. 28 U.S.C. § 1291.
On July 24, 2018, the Court of Appeals transferred
petitioner’s case back to the District court to determine
petitioner’s PAUPERI STATUS and whether this appeal is
FRIVOLOUS or taken in BAD FAITH; and kept petitioner’s
DUE DATE for filing the brief for the appeal.
On July 7, 2017 District court GRANTED
Petitioner’s pauperi status. According to FRAP 24 (3) Prior
approval.
“A party who was permitted to proceed in forma
pauperi in the district court action...may proceed
in appeal in forma pauperi without further
authorization, unless (3) the district court...
certifies that the appeal is not taken in good

£r

. -

19
faith...states in writing the reasons for the
certification or finding...”
On August 14, 2019, District Judge DENIED
petitioner leave to proceed in forma pauperi on Appeal
number 18-55996. Further, District Judge stated in her
denial “This order is not appealable. Petitioner MAY ASK
the United States Court of Appeals for the Ninth Circuit for
leave to proceed in forma pauperi in appeal number
18-55996”. Petitioner requested District Judge for the
findings of FACTS AND CONCLUSION (FRCP 52) for
Revoking petitioner’s pauperi status at the District Court
Level; District Judge DENIED the request and replied “The
Court will not permit the filing of any further documents
regarding this Court's revocation of plaintiff s pauperi
status for her Ninth Circuit Appeal No. 18-55996. Denying”
The court of appeals ORDERED Petitioner to file a
WRITTEN STATEMENT stating why she believes her
appeal is not frivolous; and a Motion requesting leave
to proceed in forma pauperi in the court of appeals.

20
On January 18, 2019; the court of appeals
AFFIRMED District Court decision that petitioner’s appeal
is Frivolous; DISMISSED case; DENIED Motion for
appointment of PRO BONO counsel. DENIED petitioner’s
leave to appear in forma pauperi; DENIED Petitioner’s
Motion for Reconsideration of the Dismissal; DENIED
request of an opinion as to why the court concluded
petitioner’s case is frivolous; DENIED Petition for Panel
Rehearing and DENIED Petition for Rehearing en banc.
(app. C). On May 1, 2019, the court of appeals entered its
MANDATE that the judgment of the court entered on
January 18, 2019 constitute the formal mandate of the
Court, (app. A). The Final Decision of the Court of Appeal
does not reflect a Review of petitioner’s VIOLATION OF
DUE PROCESS.
For a panel of three judges to conclude a case is
frivolous; they need to review the written record of the
case in the lower court and review the briefs submitted

21
by BOTH parties. (FRAP 10,11) Written records of
petitioner’s case demonstrate violation of DUE PROCESS;
ABUSED OF POWER and that the court acted IN BAD
FAITH. Lower Court did not issue the Summons; petitioner
was ordered not to serve the complaint to the defendants
and not to include exhibits in her pleadings. More
concerning; lower court ruled WHEN THERE WAS NO
CASE. Further, court of appeal DENIED petitioner’s
Motion to extend time to file her brief replying “is not
necessary” (FRAP 28). And DENIED her an opportunity
for an Oral argument; her petition for Hearing en banc was
DENIED, (app. B)
“Court of appeal had the power to void lower
court’s final judgement and orders for lack of
jurisdiction. “Service of process, under longstanding
tradition in our system of justice, is fundamental to
any procedural imposition on a named defendant.”
Murphy Bros., Inc. v. Michetti Pipe Stringing, Inc.,
526 U.S. 344, 350, 119 S.Ct. 1322, 143 L.Ed.2d 448
(1999). Consequently, courts have “uniformly held .
a judgment is void where the requirements for
effective service have not been satisfied.” Combs v.
Nick Garin Trucking, 825 F.2d 437, 442 & n. 42
(D.C.Cir. 1987) (collecting cases); cf. Cambridge

22
Holdings Grp., Inc. v. Federal Ins. Co., 489 F.3d
1356, 1360 (D.C.Cir.2007)”.
II.

REVIEW IS JUSTIFIED BECAUSE THE
SOUTHERN DISTRICT COURT AND THE
CENTRAL DISTRICT COURT LACK
JURISDICTION IN THIS CASE.
In Federal courts, the SERVICE of the SUMMONS

and the COMPLAINT are the OFFICIAL method by which
a plaintiff notifies the defendant that it is being suit.
Summons and Complaint determine (1) the court
jurisdiction over the defendant; (2) satisfy due process
requirement-give notice of the suit and (3) give an
opportunity to the defendants to defend themselves against
any claim by presenting their objections. Henderson v. U.S.,
517 U.S,654, 672 (1996); Mann v. Castiel, 68lF.3d 368, 372
(D.C. Cir. 2012).
The Summons must be signed by the court clerk and
bear the seal of the court. FRCP 4 (a) (1) (F) (a) (1) (G); (b)
Barrett v. City of Allentown, 152 F.R.D. 46, 49 (E.D. Pa.
1993). “If the Summons and Complaint are not serve

23

within 120 days (or within a specific time as ordered by the
court), the court must dismiss a suit without prejudice for
the unanswered parties unless the petitioner shows GOOD
CAUSE for not making the SERVICE. See LeponeDempsey, 476 F.3d at 1280-81; see also Henderson v. U.S.,
517 U.S. 654, 656 (1996).
On May, 2018, petitioner filed a Motion to request
District Judge to issue the Summons and to extend time to
serve the Summons and the Complaint to the defendants.
District Judge DENIED the request and replied “which the
Court will den/’. Under the federal rules enacted by
Congress, federal courts lack the power to assert
personal jurisdiction over a defendant “unless the
procedural requirements of effective service of process are
satisfied.” Gorman v. Ameritrade Holding Corp., 293 F.3d
506, 514 (D.C.Cir.2002); See Omni Capital Int'l, Ltd. v.
Rudolf Wolff & Co., Ltd., 484 U.S. 97, 104, 108 S.Ct. 404, 98

24
L.Ed.2d 415 (1987). The Southern and Central District
court lack jurisdiction over the defendants. “Once
jurisdiction is challenged, the court cannot proceed when it
clearly appears that the court lacks jurisdiction, the court
has no authority to reach merits, but, rather, should
dismiss the action.” Melo v. US, 505 F2d 1026.
The Southern and Central District court were
AWARE that they lack jurisdiction over defendants and
with that NOTION; District Judge made several rulings
and made petitioner believe, SHE HAD A CASE.
“If it [jurisdiction] doesn’t exist, it cannot
justify conviction or judgment. ...without
which power (jurisdiction) the state CANNOT
be said to be “sovereign.” At best, to proceed
would be in “excess” of jurisdiction which is
as well fatal to the State’s/ USA‘s cause.
Broom v. Douglas, 75 Ala 268, 57 So 860
the same being jurisdictional facts FATAL
to the government’s cause (e.g. see In re FNB,
152 F 64)”.
III.

REVIEW IS JUSTIFIED BECAUSE
MAGISTRATE JUDGE (MJ) ABUSED HER
POWER AND ACTED IN BAD FAITH.

—~--=f

25
A. MAGISTRATE JUDGE (MJ) ABUSE HER
POWER.
Before a Magistrate Judge (MJ) takes over a case; a
District Judge must authorize it. District Judge has the
power and authority to designate a Magistrate Judge to
handle pretrial matters in a civil case. Court clerk must
send a referral ORDER because “all pretrial matters”
assigned to the MJ comes with a Standard of Review.
Records must be kept for any clarification .636 (b). Under
28 U.S.C. § 636(c). Petitioner has to consent; if she wants
her case to be heard by a Magistrate Judge (MJ).
Petitioner NEVER received a REFERRAL ORDER
nor a NOTICE OF CONSENT FORM from a District Judge.
If there is no Referral Order and Notice of Consent;
Magistrate Judge (MJ) has ABSOLUTE POWER over a
case. In case; Willie James Glover, Plaintiff-Appellee CrossAppellant, v. Alabama Board of Corrections, Et Al.,
Defendants, James Towns, Defendant-Appellant Cross-

26
Appellee., 660 F.2d 120 (5th Cir. 1981) a court concluded “a
decision without consent by a magistrate, a non-Article III
judge, would undermine this objective of the Constitution
and might violate the rights of the parties”. Further, any
findings from a Magistrate Judge (MJ) should not be final.
Title 28 U.S.C.§ 636(b)(3), Findings by a Magistrate Judge
(MJ) made pursuant to this provision are NOT final, but
“are subject to de novo determination by the district
court judge.” Magistrate Judge judiciary pre-trial
proceedings transpired as such:
“Magistrate Judge DENIED a civil action:
VIOLATED Due Process. RESPONDED on
behalf of the defendants. DISMISSED complaint.
DENIED appointment of Counsel. DISMISSED
complaint with leave to amend. OBSTRUCTED
DISCOVERY.DENIED trial by Jury.
Magistrate Judge DENIED petitioner a fair and
unbiased pre-trial”.
“Court must prove on the record, all jurisdiction facts
related to the jurisdiction asserted. ” Latana v. Hopper, 102
F. 2d 188; Chicago v. New YorkA 37 F Supp. 150. “A court

27

cannot confer jurisdiction where none existed and cannot
make a void proceeding valid. It is clear and well
established law that a void order can be challenged in any
court”. OLD WAYNE MUT. L. ASSOC, v. McDONOUGH,
204 U. S. 8, 27 S. Ct. 236 (1907).
B. MAGISTRATE JUDGE (MJ) SUPPRESSED
EVIDENCE.
Discovery is a crucial phase in civil case. During this
time petitioner can produce and request relevant
information that can help her to support her claim or to
defend herself from claims against her. FRCP (26) (b) (1).
On July 24, 2017 Magistrate Judge ordered petitioner not
to submit any exhibits.
“Evidence that included, but not limited
to Doctors’ own declaration in regards
petitioner’s medical condition; Lab test
results, X-ray exams, Medical records,
Pharmacy records, Summary of Drug
prescription, Doctors’ diagnosis, assessments
, plan/treatments to petitioner’s medical
conditions. Medical literature, Ranganath’s
Clinical study, among other relevant medical
and non-medical documents to support her claim”.

28

Rule FRCP 34 (c) “written instruments usually consist of
documentary evidence...on which a party’s action or
defense is based. Rose u. BartleJ&71 F.2d 331, 339 n.3 (3d.
Cir. 1989). Petitioner has the BURDEN OF PROOF to
demonstrate that all her claims are LEGITIMATE.
Petitioner has the right to present Exhibits (evidence) to
support all of her claims against defendants.
On February 2, 2018, Petitioner filed her Second
Amendment Complaint (SAC) with NO EXHIBITS.
(complying with Magistrate Judge’s orders).
C. MAGISTRATE JUDGE INVALID REPORT AND
RECOMMENDATION (R&R)
On April 05, 2018, Magistrate Judge (MJ) filed her
Report and Recommendation. On April 26, 2018, Petitioner
filed her OBJECTIONS to MJ’s R&R with NO EXHIBITS.
Petitioner ‘s OBJECTIONS to MJ’s R&R’ clearly
demonstrates MJ ABUSED her POWER and
DISCRETION. Report contains several MISCONSTRUE
ERRORS OF FACTS that do not represent what

29
petitioner wrote in her complaint nor what the evidence
demonstrates. Furthermore, Magistrate Judge’s Report
& Recommendation lacks jurisdiction, (app. F)
When a party files timely written OBJECTION to a
Magistrate Judge’s report, the District court MUST “make
a de novo determination of those portions of the report ...to
which objection is made." 28 U.S.C. 636(b)(1)(C); see also
Summers v. Utah, 927 F.2d 1165, 1167 (10th Cir.1991) ("De
novo review is statutorily and constitutionally required....").
IV.

REVIEW IS JUSTIFIED BECAUSE DISTRICT
JUDGE (D J) ABUSED HER POWER AND
ACTED IN BAD FAITH.
A. DISTRICT JUDGE (DJ) RULED IN A CASE; SHE
LACK JURISDICTION
Petitioner requested District Judge for the Fact and

Findings of Nine controverted issues and as to why she
revoked pauperi status and concluded petitioner’s case is
frivolous. District Judge DENIED to provide her legal
rationality as to her rulings in petitioner’s case; because
evidences show this case is for a JURY. (FRCP 38)

30
The RIGHT to an impartial JURY TRIAL in civil
cases is embedded in our constitution: The SEVENTH
AMENDMENT guarantee the right “to trial by jury”; The
REHABILITATION ACT and THE AMERICA WITH
DISABILITY ACT (ADA) protects individual with
disabilities the right to trial by jury. And the FIFTH
AMENDMENT guarantee “No person shall be...deprived of
life, liberty, or property, without Due Process. See. McCoy
v. Goldston, 652 F.2d 654, 657 (6th Cir, 1982). When a judge
takes the case from a jury when the evidences are clear and
solid in favor of a petitioner; the judge has USURPED the
role of the jury and the judge does not have that POWER.
In a case, when based on evidences the MINDS DIFFER AS
TO THE RESULTS; the case is for the JURY, NOT the
JUDGE. (FRCP 38)
B. DISTRICT JUDGE (DJ) REVOKED PETITIONER’S
PAUPERI STATUS.
Rule FRAP 24 (a), A party who was permitted to
proceed in forma pauperi in the District Court-action; may

-

--AV-

31
proceed on appeal in forma pauperi without further
authorization, unless, The District court must certify IN
WRINTING its reasons for the certification or
findings that the appeal is not taken in good faith and
petitioner is not entitled to proceed in forma pauperi.
Petitioner did not know District Judge had concluded
petitioner’s case was frivolous at the district court level.
District Judge did not provide any explanation as to why
she revoked petitioner’s pauperi status and concluded
petitioner’s case is frivolous. Petitioner did not include
Exhibits (evidence) in her subsequent pleadings and
amendments; because she was following Magistrate Judge’s
orders.
District Judge’s orders and final judgment filed on
July 6, 2018 does not states/certify/pro vide any legal
opinion/facts about petitioner’s case been FRIVOLOUS.
(apps. D & E). Further, if there is an ISSUE as to
petitioner’s case been frivolous; why the court

32
OBSTRUCTED the case in several ways and acted with
MALICE and in BAD FAITH by making petitioner believe
she had a case; when she did not. The REVOKING of
petitioner’s pauperi status and concluding
petitioner’s case is frivolous without any legal reason is
another proof of the extreme mental and physical abused
and unjust treatment petitioner had to endure at the
Southern District court and the Central District court.
C.

DISTRICT JUDGE (DJ) CONCLUDED
PETITIONER’S CASE IS FRIVOLOUS.
1. Theory of Plausibility
In a Civil Case petitioner has the BURDEN OF

PROOF. Petitioner needs to establish her version of the
events is MORE probably TRUE than the defendants. That
is, the preponderance of the EVIDENCE has to favor
Petitioner’s version of the events. There are two basic ways
in which to establish lack of PROBABLE CAUSE: failure
to allege a coherent legal theory (Discrimination,
Violation of ADA, Conspiracy, etc.), and failure to allege

fe=-

33
truthful facts (facts that any reasonable person can
determine they are true.
This is not the case of petitioner. Petitioner has been
able TO PROOF those two basic elements with her claims
and with her evidences. Moreover, petitioner allegations
are not merely conceivable or conclusory; but are facts. See
Iqbal, 556 U.S. at 678-79. Further, the plausibility
determination should be made based on the entire claim;
not individual allegations. See. Whitney v. Guys, Inc., 700
F.3d 1118, 1128 (8th Cir.2012). In Iqbal, The Supreme
Court stated that determining whether the plausibility
standard has been met will be “context-specific” and will
require a judge to use her experience and common sense.
(a)

Reasonable inference of liability.

A claim is plausible on its face when the petitioner
(plaintiff) claim “actual facts” that allow the court to draw a
Reasonable Inference that the defendant did wrong and
consequently, liable for the allege wrongdoing.

jfe-

34
(b)

Degree of factual specificity.

The factual allegations do not need to be detailed;
but they must provide more than labels or conclusions. See.
Shepard v. David Evans & Associations.,_694 F.3d 1045
1050, (9th Cir.2012) (Although complaint was brief, plaintiff
had straightforward claim of discrimination that was
plausible).
(c)

Information and belief.

The factual information can be based on information
or belief. FRCP 11 (b); See Arista Records LLC v. Doe 3, 604
F.3d 110, 120 (2d Cir. 2010). Claim are appropriate when
(1) the information is within the knowledge of the
defendant but not the plaintiff or (2) the belief is based on
factual information that makes the inference of culpability
possible.
V.

REVIEW IS JUSTIFIED BECAUSE TO INFLICT
PSYCHOLOGICAL PAIN TO A DISABLE
LITIGANT IS JUST “INHUMANE”.

m*----

35
Petitioner brought her case to court seeking
“JUSTICE” for herself; not to be the subject of hate/
adversity/oppression, etc. from people that she does not
know. Petitioner has been the subject to Police officers/
Security officers/Civilian officers following her everywhere;
surveillance cameras on her; tracking devices in her car.
Following her in the freeway; hacking her computer;
listening to her conversations; her cell phones etc. Her
disability benefits cancelled without any explanation. A
Squad of police officers showing up at petitioner’s family
looking for petitioner; spreading false accusations about her
persona to her family and to the neighbors. The amount of
fear, stress, panic petitioner’s family and petitioner have
been enduring is UNJUSTIFIABLE AND IRREPARABLE.
This case is not about “frivolous” or “pauperi”; this is
about a DISABLE WOMAN; who had desires to get
medical treatment for her medical conditions; because she
had desires to become pregnant and OBJECTED physical

36
and mental abuse and REJECTED inferior medical
services at UCLA Medical Center.
The rest... everybody is trying to prevent UCLA
FROM ANSWERING THE COMPLAINT; on the expense of
petitioner; who for the last three years the Southern
District court, the Central District court and the Court of
Appeals have deliberate DECEIVED her by making her
believe she had case; when she did not.
That’s INHUMANE.
The rest... is just undisputable “OBSTRUCTION
OF JUSTICE”.
CONCLUSION
The Petitioner requests that the Court GRANT the
petition for writ of certiorari.
Dated: September 14, 2019
Respectfully submitted,
Marilu Touma
Plaintiff/Petitioner
4439 Murietta Avenue #20
Sherman Oaks, CA 91423
Mtoumre2017@aol.com

